<html>
<title> - NATO AT 70: A STRATEGIC PARTNERSHIP FOR THE 21st CENTURY</title>
<body><pre>[Senate Hearing 116-105]
[From the U.S. Government Publishing Office]


                                                    S. Hrg. 116-105

                  NATO AT 70: A STRATEGIC PARTNERSHIP
                          FOR THE 21st CENTURY

=======================================================================

                                 HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 2, 2019

                               __________


       Printed for the use of the Committee on Foreign Relations

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                   Available via the World Wide Web:
                         http://www.govinfo.gov

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-966 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------


                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD, YOUNG, Indiana                 CORY A. BOOKER, New Jersey
TED CRUZ, Texas
              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        

                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Risch, Hon. James E., U.S. Senator From Idaho....................     1
Menendez, Hon. Robert, U.S. Senator From New Jersey..............     3
Brzezinski, Ian, Resident Senior Fellow, Atlantic Council, 
  Washington, DC.................................................     5
    Prepared statement...........................................     7
Donfried, Dr. Karen, President, The German Marshall Fund of the 
  United States, Washington, DC..................................    10
    Prepared statement...........................................    12

                             (iii)        


 
        NATO AT 70: A STRATEGIC PARTNERSHIP FOR THE 21st CENTURY

                              ----------                              


                         TUESDAY, APRIL 2, 2019

                               U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. James Risch, 
chairman of the committee, presiding.
    Present: Senators Risch [presiding], Menendez, Cardin, 
Shaheen, Gardner, Romney, Young, Murphy, and Kaine.

            OPENING STATEMENT OF HON. JAMES RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. The committee will come to order. Well, thank 
you all for coming today, and we have an all-star cast of 
witnesses. Before we do that, both ranking member and I have 
some remarks regarding NATO. This is an auspicious occasion, on 
the 70th, or close to the 70th anniversary of NATO, which is 
the day after tomorrow.
    But in any event, what I would like to do is talk a little 
bit about NATO, which is, in my judgment, and I think most 
people's judgment, the most successful military alliance in the 
history of the world. And to look ahead at the role of NATO, 
and how we can play in a quickly evolving threat environment.
    NATO was founded by its first 12 members after the shock of 
the Soviet blockade of Berlin. And the West's airlift in 1948 
and 1949 made us realize the threat that the Soviet Union posed 
to peace and prosperity. That conflict is far behind us, but 
NATO has remained an important piece of the framework that 
supports our collective security.
    NATO has come to the aid of the United States in 
Afghanistan after attacks of September 11th. It has ended 
genocides, and maintained peace in the Balkans. It has trained 
troops of the new Iraqi government, run air policing missions 
on Europe's eastern plank, helped end the genocide in Darfur, 
provided assistance to the U.S. after Hurricane Katrina, and 
most importantly, sustained the period of unprecedented peace 
among the major European powers.
    NATO has proven not only to be a military success, but a 
political and economic one. For its members, NATO security 
umbrella has provided the kind of stable environment necessary 
for economic growth and investment. Former Soviet Bloc 
countries clambered for NATO membership, not only for 
protection against Russia, but for the economic strength the 
membership could foster. U.S. trade with our fellow NATO 
members remains key to our economy.
    Last week ranking member Menendez and I, along with several 
of our colleagues, introduced a resolution expressing our 
strong support for NATO, and in congratulating it on its 70 
years of successes. Tomorrow morning, we will have the honor of 
welcoming NATO Secretary-General Jens Stoltenberg to address a 
joint session of Congress. Then later this year this committee 
will have the opportunity to vote to approve the accession of 
North Macedonia into the alliance.
    Looking back and remembering the accomplishments of NATO is 
important. NATO remains the preeminent political military 
alliance in the world. Together, we work to defeat the Soviet 
Union and usher in decades of peace and prosperity in Europe. I 
would also argue that the success of institutions like the 
European Union were only possible because of how NATO 
reorganized Europe.
    NATO is the only international organization where unanimity 
and thus sovereignty is entirely protected. This means and 
meant no matter how small a country was in the alliance, they 
were treated as equals with the largest States, because every 
nation's opinion mattered as much as the next in the alliance.
    While we should be celebratory of all that NATO has 
accomplished and the peace it has preserved, I also want this 
hearing to look forward. How can NATO confront the full set of 
security challenges that are quickly emerging? Cyber warfare, 
China, disinformation, and remain relevant in this new 
environment?
    At the same time, Russia has reemerged as a threat to NATO 
nations. If there is any doubt about that, anyone can spend a 
short period of time with the governments of Georgia and the 
Ukraine to convince us how dangerous Russia is today. And in 
addition to that, spend a few minutes with the victims of the 
people who have been poisoned recently in London. Russia is a 
threat, and remains a threat, and is getting worse instead of 
better.
    NATO also faces a number of challenges from within. First 
is the need to invest more in defense. It is important to note 
that the number of allies spending 2 percent of their GDP on 
defense and 20 percent of their defense budgets on equipment 
has increased since 2014, adding more than $100 billion to 
European defense spending. Seven allies currently meet their 2 
percent pledge, and 18 in total are on track to do so by 2024.
    But we have also seen a couple of countries suggest they 
will cut their defense budgets in a few years. This is 
challenging. Congress feels strongly that the financial 
commitment must be met.
    I know of at least one other person in this town who feels 
even more strongly, and I have had occasion to discuss this 
with him on a number of occasions. We are all dedicated to the 
fact that commitments made must be met.
    However, the amount of money is not the only issue. We must 
continue to modernize our defense capability. Spending 20 
percent on modernization is a good start. But countries should 
also see this goal as a floor and not as a ceiling.
    Another challenge the alliance faces is that of threat 
assessments. Our allies along the eastern flank face real 
security challenges created by Russia, whether through 
deployments in the Kaliningrad, or disinformation campaigns 
targeted at ethnic communities and their countries. Distance 
from Russia should not diminish the concern over Russian 
tactics in support for all members of the alliance.
    At the same time countries along the southern flank of the 
alliance has substantial challenges with migrant flows and the 
ability of extremists to use those flows to move into allied 
countries. Again, problems of this magnitude do not stop at 
country borders. They affect all, though differently. Better 
intelligence sharing and maritime security is needed, and 
something that NATO can provide.
    Mobility in the alliance remains a challenge as road, rail, 
and seaports create challenges for moving military equipment 
around the alliance. And the bureaucracy of the EU adds 
enormous difficulties to establishing requirements for the 
construction of new transportation networks. Bureaucracy is 
always a challenge. We Americans know bureaucracy when we see 
it. We are not immune either.
    In an era where speed increases deterrence, the pace of 
bureaucracy is undermining efforts to improve it. We all need 
to do better.
    Finally, as I said earlier, NATO is the most successful 
political military alliance in the history of the world, 
precisely because it defends common values and principles like 
democracy, human rights, and rule of law. We have seen NATO 
allies have difficulty adhering to these values as member 
countries and their institutions mature. But all of us, all of 
us must remain committed to those core values and upholding 
them.
    In closing, do not let all these critiques make it sound 
like NATO is weak or imperiled. Thursday will mark 70 years of 
this alliance and its successes. I said the past 70 years were 
not always as easy as our memories would have us believe, but 
those disagreements have taught us how to work through our 
issues to find solutions. It is that constructive spirit that 
we should look to as NATO moves forward.
    Make no mistake about America's commitment to NATO. We are 
committed. We are committed to moving forward through the next 
70 years, and make them as successful as the last 70 years.
    Senator Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman, for calling a 
very important hearing as we approach the 70th anniversary of 
NATO. And I certainly want to associate myself with all of the 
remarks you made as it relates to the importance of the NATO 
alliance.
    Over the past 2 years we have found ourselves repeatedly 
having to express support for the alliance in the face of 
persistent skepticism by President Trump. I am happy to 
regularly express our commitment to the alliance, one that has 
done so much to preserve security since World War II. And I 
applaud you, Mr. Chairman, for leading a resolution on the 
committee expressing support for the alliance, which I am 
privileged to co-lead with you.
    I would have hoped through our consistent rock-solid 
bipartisan commitment to NATO through letters, resolutions, and 
votes on the floor, our military leaders' reaffirmation would 
somehow break through with the President. The American people 
support this alliance, and it is about time that he 
unequivocally recognizes that.
    These concerns were amplified last month when the White 
House floated a plan called ``Cost, plus 50 Percent,'' where 
any country hosting U.S. troops would pay the full price of 
American soldiers deployed on their soil, plus 50 percent or 
more for the privilege of hosting them. Thankfully, this 
proposal has met with strong bipartisan backlash. There is a 
reason many times for our own forward promotion of our 
interests that we site bases in different parts of the world, 
not just for that country's interest, but for our own interests 
in terms of national security.
    I would like to quickly address four challenges to the 
alliance that I hope we can examine today. First, as many of us 
who were in Munich last February heard directly from our 
strongest allies, the President's erratic language on NATO 
continues to erode confidence in the U.S. commitment to Article 
V, and the alliance overall.
    What was previously unthinkable, that the United States 
could withdraw from the alliance it was instrumental in 
shaping, remains a real concern for many of us. That is why 
Senator Graham and I included within our DASCA legislation 
provisions that would subject any such move to Senate consent.
    Senator Kaine has also led efforts on a similar piece of 
important legislation. It took Senate consent to get us into 
NATO, so it should take Senate consent for any effort to remove 
us from the alliance.
    In February I visited NATO headquarters and saw the 
memorial to those lost on September 11th of 2001. This was a 
sober reminder of the only time that NATO's Article V has been 
invoked. Our allies were there for us in our time of need. 
There should be no question that we will be there for them.
    Second, despite what some say, our allies are largely 
stepping up to the plate. Starting in 2014, in response to 
Russia's invasion of Ukraine, countries across the alliance 
began to significantly increase defense spending. There is 
bipartisan consensus that spending needs to be maintained, not 
only for the 2 percent commitment of GDP to defense, but more 
importantly the 20 percent to new procurement.
    Third, I am concerned that the United States is moving 
increasingly to establish bilateral military ties to avoid 
coordination at NATO. Many Europeans see this as another divide 
and rule tactic the Trump Administration is using to weaken 
European integration and unity. While achieving consensus is 
hard, our security in the Transatlantic Alliance are best 
served when NATO acts together.
    And fourth, on a positive note, the Senate will deliberate 
this year on the accession of North Macedonia to the alliance. 
As we reminded Montenegro during its accession process, NATO is 
also an alliance of values, and that Article II commitments are 
just as important as others in the NATO charter. North 
Macedonia must commit to strengthening their free institutions, 
the rule of law, and protecting minorities in the country while 
also bolstering its defense capabilities.
    Finally, it is worth highlighting why we need NATO today. 
The threat the Russian Federation poses to European security 
has only intensified. The Skripal attack on British soil, 
continued interference in politics across Europe, intensified 
military aggression in the European country of Ukraine, as we 
bolster the defenses of those in the front lines of the 
enhanced board presence and European deterrence initiative, we 
must continue to strengthen our defenses against hybrid warfare 
tactics and work with partners to defend against constantly 
changing threats from the Kremlin.
    On August 24th of 1949, the North Atlantic Charter signing 
ceremony took place in Washington. At that event President 
Truman said, ``In this pact we hope to create a shield against 
aggression and the fear of aggression, a bulwark which will 
permit us to get on with the real business of government and 
society, the business of achieving a fuller and happier life 
for all of our citizens.''
    Nearly 70 years later those words still ring true. NATO has 
provided for our common defense over the years, and in doing so 
it has created the environment for our prosperity and that of 
our allies. That, Mr. Chairman, seems like a pretty good deal 
to me. And I look forward to hearing our witnesses' testimony.
    The Chairman. Thank you, Senator Menendez. We will now turn 
to our witnesses. And as I said earlier, this is an all-star 
cast, and we certainly want to welcome them. We are going to 
start with Mr. Ian Brzezinski. He is a resident senior fellow 
with Scowcroft Center for Strategy and Security at the Atlantic 
Council.
    He also runs the Brzezinski Group, which provides strategic 
insight. Mr. Brzezinski served as deputy assistant secretary of 
defense for Europe and NATO Policy from 2001 to 2005, where he 
was responsible for NATO expansion, alliance force planning and 
transformation, and NATO operations in the Balkans, 
Mediterranean, Afghanistan, and Iraq.
    Mr. Brzezinski served 7 years on Capitol Hill, first as a 
legislative assistant for National Security Affairs to Senator 
Bill Roth, and then as a senior professional staff member on 
this committee.
    Earlier, Mr. Brzezinski advised the Ukrainian National 
Security Council, Foreign Ministry, Defense Ministry, and 
Parliament, served as a member of the policy planning staff in 
the Defense Department, and worked for 5 years as principal at 
Booz, Allen and Hamilton, providing policy and technical 
support to U.S. combatant commands and to foreign clients.
    So, with that, we will start with Mr. Brzezinski. The floor 
is yours.

 STATEMENT OF IAN BRZEZINSKI, RESIDENT SENIOR FELLOW, ATLANTIC 
                    COUNCIL, WASHINGTON, DC

    Mr. Brzezinski. Chairman Risch, ranking member Menendez, 
distinguished members of the committee, as we approach NATO's 
70th anniversary, thank you for allowing me to participate in 
this stocktaking of the alliance. NATO is an invaluable 
alliance. As said, it is history's most successful alliance.
    The transatlantic security architecture NATO provides has 
transformed former adversaries into allies and deterred outside 
aggression. European allies that are secure at peace are 
inherently better positioned for prosperity. They are better 
able to work with the United States to address challenges in 
and beyond Europe.
    NATO has been a powerful force multiplier for the United 
States. Time and time again European, Canadian, and U.S. 
military personnel have served and sacrificed shoulder to 
shoulder on battlefields in Iraq, Afghanistan, and elsewhere 
around the world.
    The alliance provides the United States the ability to 
leverage unmatched political, economic, and military power. 
NATO's actions benefit from the political legitimacy unique to 
this community of democracies. NATO's economic powers and $40 
trillion in GDP dwarfs that of any rival. No other military 
alliance can field the forces capable as NATO.
    These assets only become more important in today's 
increasingly challenging security environment. That environment 
features the return of great power competition featuring 
Russia's revanchist ambitions and China's growing 
assertiveness. Second, we are witnessing a disturbing erosion 
of rules-based order that has been the foundation of peace, 
freedom, and prosperity since the end of World War II. Third, 
we face a growing collision between liberal democracy and 
authoritarian nationalism.
    A fourth dynamic is the advent of rapid technological 
change. The impending introduction of hypersonic weapons, 
artificial intelligence, quantum computing, and other 
technologies to the battlefield portends a radical redefinition 
of the requirements for stability and security.
    If NATO is to be as successful in the future as it has been 
over the past seven decades, it must adapt to match these 
challenges. Toward that end its agenda must include the 
following five priorities.
    First, the alliance must accelerate its efforts to increase 
preparedness for high-intensity conflict. After the cold war, 
NATO's force posture shifted toward peacekeeping and 
counterinsurgency. Today, Russia's military aggressions and 
sustained military buildup have reanimated the need to prepare 
for high-intensity warfare, the likes of which we have not had 
to face since the collapse of the Soviet Union.
    This is a matter of real concern. It is notable that the 
commander of United States European Command (EUCOM), testified 
last month that he is not yet ``comfortable with the deterrent 
posture we have in Europe.'' He warned that, ``A theater not 
sufficiently set for full spectrum contingency operations poses 
increased risk to our ability to compete, deter aggression, and 
prevail in conflict, if necessary.''
    This reality underscores a second NATO priority. Canada and 
our European allies must invest more to increase their military 
capability and readiness. Their investments must address key 
NATO shortfalls, including air and missile defense, 
intelligence surveillance reconnaissance, long-range fires, 
among others. Time is long overdue for our allies to carry 
their share of the security burden.
    Third, NATO must further reinforce its flanks in North 
Central Europe, the Black Sea region, and the Arctic. These are 
the foci of Russia's military buildup, provocations, and 
aggression. In North Central Europe the challenge is acute. The 
alliance's four Enhanced Forward Presence battalions stationed 
in Poland, Lithuania, Latvia, and Estonia, they are positioned 
against divisions of Russia ground forces, backed by 
sophisticated aircraft, air defense, helicopters, and missiles.
    Fourth, NATO must more substantially embrace and support 
the membership aspirations of Ukraine and Georgia. NATO 
enlargement is one of the great success stories of the post-
cold war era. It expanded the zone of peace and security in 
Europe and strengthened the alliance's military capability. But 
the alliance needs to also provide Ukraine and Georgia a clear 
path to membership, recognizing it will take them time to meet 
the alliance's political and military requirements.
    There is a clear lesson from Moscow's invasions of Ukraine 
and Georgia. NATO's hesitation regarding the membership 
aspirations of these two democracies only animated Vladimir 
Putin's sense of opportunity to reassert control over what has 
been allowed to become a destabilizing gray zone in Europe's 
strategic landscape.
    Finally, the alliance needs to actively consider the role 
it will play in the West's relationship with China. While China 
is not an immediate military threat to Europe, its actions 
against a rule-based international order affects Europe as it 
does the United States. NATO can play a constructive, if not 
significant role in the West's strategy to shaping more 
cooperative relationship with Beijing.
    As the United States confronts the challenges of 21st 
century, there is no instrument more central, indeed, more 
indispensable than NATO. The political influence, economic 
power, and military might available through this community of 
democracies cannot be sustained in the absence of a robust U.S. 
military commitment to the alliance. That is the price of 
leadership, and it is one whose returns have been constantly 
advantageous to the United States.
    Thank you, sir.
    [The prepared statement of Mr. Brzezinski follows:]

                Prepared Statement by Ian J. Brzezinski

    Chairman Risch, Ranking Member Menendez, distinguished members of 
the Committee, thank you for conducting this hearing and sharing the 
opportunity to highlight the value of the NATO Alliance.
    As the Alliance's completes its 70th year on April 4th, we should 
also note that this is a year of other significant transatlantic 
anniversaries. This November will mark thirty years since the fall of 
the Berlin Wall and the end of the Cold War, an historic NATO victory. 
Last month brought us the 20th anniversary of the accession of Poland, 
the Czech Republic, and Hungary to NATO and the 15th anniversary of the 
accession of seven other central European democracies into the 
Alliance--the ``big bang'' round of NATO enlargement. This year is also 
the 10th anniversary of Albania and Croatia joining the Alliance. These 
are important milestones in the effort to build a transatlantic 
community featuring a Europe that is ``whole, free and at peace''--and 
they underscore the success of NATO.
    For these reasons I applaud the Resolution introduced by the 
Chairman, Senator Menendez and other members of this Committee to 
celebrate NATO's achievements, underscore its value to the United 
States, and reaffirm US commitment to this Treaty and its cores 
articles, including, and most importantly, the Article V defense 
commitment. This resolution is timely, constructive, and needed.
    As the resolution infers, now is an appropriate time to take stock 
of the Alliance and its pivotal role in transatlantic security, the 
challenges before this unique community of democracies, and what needs 
to be done to strengthen the Alliance and adapt it to current and 
anticipated realities.
    NATO provides a transatlantic security architecture that has 
sustained peace among its members on a continent that over the last two 
centuries was ravaged by some six major wars, including two world wars. 
Through sustained US leadership, the Alliance's consensus based 
decision making process, and its joint commands, exercises and 
operations, NATO has helped transform former adversaries into partners 
and deterred outside aggression. European democracies that are secure 
and at peace are inherently better able become prosperous. They are 
better able to work with the United States in addressing challenges 
within and beyond the North Atlantic arena.
    The Alliance has been a powerful force multiplier for the United 
States. It generates among our allies--and a growing number of NATO 
partners--militaries that are interoperable with the US armed forces 
and that have earned the confidence of our military commanders. Time 
and time again European, Canadian and US soldiers, sailors, airmen and 
marines have served and sacrificed shoulder to shoulder on battlefields 
often far from Europe, in places like Iraq, Afghanistan and elsewhere 
around the world.
    Above all, the Alliance provides the United States the ability to 
leverage unmatched political, economic and military power. NATO's 
actions benefit from the political legitimacy unique to this 
transatlantic community of democracies. The economic power of this 
community--a combined total of over $39 trillion in GDP--dwarfs that of 
any rival. The Alliance's military capability remains unsurpassed. No 
other military alliance can field a force as integrated and as capable 
as NATO.
    NATO's value to the United States has only increased in today's 
increasingly complex and dynamic security environment. This committee 
has repeatedly documented the return of great power competition driven 
by Russia's revanchist ambitions and China's growing assertiveness. 
Moscow's invasions of Ukraine and Georgia, its military provocations, 
assassinations, interference in foreign elections and abandonment of 
international arms control treaties are but one set of examples of how 
the rules based order that has been a driver of peace, freedom and 
prosperity around the globe is under threat.
    The collision between liberal democracy and authoritarian 
nationalism is another disturbing feature of today's security 
environment. The latter's emergence among NATO's own member states has 
indigenous causes, but it is also being fueled significantly by both 
Moscow and Beijing, in large part to weaken and sow division within the 
West.
    And, the world today is on the cusp of dramatic technological 
change which some refer to the ``fourth industrial revolution.'' In the 
realm of defense technology, this features the advent of hypersonic 
weapons, artificial intelligence, quantum computing, and other 
technologies that promise to transform the battlefield and redefine the 
requirements of military stability and security.
    When navigating these challenges to protect and promote US values 
and interests, NATO's military capacity as well as the political and 
economic power offered by this community of democracies only becomes 
more essential.
    Nonetherless, NATO and its member states must continue to adapt to 
match and surpass the challenges of the new and evolving security 
environment. Toward this end, NATO should include among its foremost 
priorities the following:
    First, the Alliance must accelerate its efforts to increase 
preparedness for highintensity conflict. Following the end of the Cold 
War, the Alliance's force posture shifted toward the requirements of 
peacekeeping and counter-insurgency. These were demands generated by 
operations in the Balkans, Afghanistan and elsewhere. Today, Russia's 
military aggressions and provocations and sustained military build-up, 
particularly in its Western Military district, underscore the renewed 
need to prepare for high intensity warfare contingencies, the likes of 
which we have not had to face since end the Cold War.
    The Alliance's readiness for such contingencies is a matter of real 
concern. It is notable that General Curtis Scaparrotti, the Commander 
of United States European Command, testified on March 13th before House 
Armed Services Committee that he is not yet ``comfortable with the 
deterrent posture that we have in Europe'' and warned that ``a theater 
not sufficiently set for full-spectrum contingency operations poses 
increased risk to our ability to compete, deter aggression, and prevail 
in conflict if necessary.''
    Addressing this challenge is the responsibility of all NATO allies. 
This is the second challenge before NATO. Our European Allies and 
Canada must invest more to increase the capability and readiness of 
their armed forces. Their investments must address key NATO shortfalls, 
including air and missile defense, intelligence surveillance and 
reconnaissance (ISR), and long-range fires, among others. Europe must 
build the infrastructure necessary to facilitate the rapid movement of 
heavy forces to NATO's frontiers in times of crisis and conflict.\1\
---------------------------------------------------------------------------
    \1\  There are two European infrastructure efforts underway that 
offer real potential to improve NATO's ability to move heavy forces 
rapidly across Alliance territory. The European Commission has proposed 
that that the European Union Budget for 2021-2027 earmark 6.5 billion 
Euros allocated to its Connecting Europe Facility to ensure that 
strategic transport routes are fit for heavy military equipment. The 
Three Seas Initiative, a Central European effort to accelerate the 
development of cross border infrastructure, could also be leveraged to 
ensure that the key highways, railroads, and routes it supports will be 
able to handle military grade equipment.
---------------------------------------------------------------------------
    It is true that our Allies are finally making tangible progress 
toward meeting their longstanding commitment to spend an equivalent of 
2% GDP on defense. NATO Secretary General Jens Stoltenberg recently 
stated that since 2017, our European Allies and Canada have increased 
their defense spending by $41 billion and that figure is on track to 
increase to $100 billion by 2020. That is real progress and it must 
continue.
    The 2% benchmark and the concurrent commitment by NATO allies to 
direct 20% of defense spending into military procurement provides a 
simple, politically useful metric to prod more equitable burden 
sharing. However, its effectiveness can and should be reinforced in two 
ways. NATO should reanimate the inspections it used during the Cold War 
to assess the readiness, deployability and sustainability of committed 
Allied military units. Such inspections should be executed by one the 
Alliance's two strategic commands, NATO's Supreme Headquarters Allied 
Powers Europe and Allied Command Transformation. Data from such 
inspections should be reported to NATO Defense ministers and, where 
possible, incorporated into the annual public reports the NATO 
Secretary General publishes on Allied defense spending.
    Third, NATO needs to reinforce its increasingly vulnerable flanks 
in North Central Europe, the Black Sea region and the Arctic where 
military stability has been undermined by Russia's military build-up, 
provocations, and aggression. In North Central Europe, the challenge is 
acute where the Alliance's four Enhanced Forward Presence (EFP) 
battalions stationed in Poland, Lithuania, Latvia and Estonia are 
juxtaposed against divisions of Russian airborne, mechanized infantry, 
artillery, and tank units and the sophisticated aircraft, air defense, 
helicopters, ships, and missiles that support them.
    If these NATO battalions are to be a truly effective deterrent 
against an aggressor of this magnitude, they must be able to survive 
for at least a limited amount of time amidst an aggressive attack. They 
must have sufficient lethality to impose costs on the adversary, and 
the Alliance must have a demonstrable capacity to reinforce them in 
real time. To become truly credible, NATO's Enhanced Forward Presence 
must be a central focus of the Alliance's readiness initiatives and the 
investment priorities of NATO member states.
    Toward this end, Poland has offered to host a permanent US military 
presence on its territory, and the two governments are negotiating this 
offer. Today, the United States deploys to Poland on a rotational basis 
an armored brigade combat team, an armored battalion as part of NATO's 
Enhanced Forward Presence, and an Army aviation detachment, among other 
military assets. Transitioning that presence so that it would feature a 
permanently stationed brigade complemented by a division level 
headquarters and key enablers, including air and missile defense, 
fires, and engineering equipment would significantly improve the 
defense of NATO's eastern frontier, including the Baltics. Such a 
permanent US presence in Poland could and should be facilitated by 
force contributions from other NATO allies.
    Fourth, the Alliance must more substantially embrace and support 
the membership aspirations of Ukraine and Georgia. NATO enlargement has 
been one of the great success stories of post-Cold War Europe. The 
extension of NATO membership to Central European democracies reinforced 
peace and security in Europe and strengthened the Alliance's military 
capability. The newest members of the Alliance have been among Europe's 
most stalwart transatlanticists and most willing to contribute to US-
led operations, including those beyond Europe.
    The recent accession of Montenegro and the impending accession of 
Macedonia to NATO are important steps toward completing the vision of 
an undivided Europe, but the Alliance needs to also provide Ukraine and 
Georgia a clear path to NATO membership, recognizing it will take them 
time to meet the political and military requirements.
    Toward this end, these two nations should be more deeply 
incorporated into the maritime, air, and ground force initiatives the 
United States and NATO is developing for the Black Sea region. Their 
territories would be useful to anti-submarine, air-defense, 
surveillance, and other operations needed to counter Russia's efforts 
to leverage its occupation of Crimea into an anti-access/area-denial 
bastion spanning that sea. And, NATO Allies should expand the lethal 
security assistance provided to Georgia and Ukraine to include anti-
aircraft systems, antiship missiles and other capabilities that would 
enhance their capacities for self-defense.
    One clear lesson from Moscow's invasions of Ukraine and Georgia is 
that the ambiguity of these two countries' relationships with the 
Alliance only whetted the appetite of Russia's President, Vladimir 
Putin, and animated his sense of opportunity to reassert Moscow's 
hegemony over what has been allowed to become a de facto and 
destabilizing grey zone in Europe's strategic landscape.
    Finally, the Alliance needs to actively consider the role it will 
play in the West's relationship with China. While China is not an 
immediate military threat to Europe, its actions against the rules 
based international order affects Europe as it does America. The 
Alliance should expand and deepen its network of partnerships in the 
Asia-Pacific region that now include, among others, Japan, Korea, and 
Australia. As the transatlantic community's military arm, NATO can play 
a constructive, if not significant role, in the West's broader 
diplomatic, economic and military strategy to counter China's 
provocative actions and to shape a cooperative and mutually beneficial 
relationship with Beijing.
    As the United States confronts the complex and dynamic challenges 
of the 21st century, there is no instrument more essential and 
indispensable than NATO. The political influence, economic power, and 
military might available through this community of democracies cannot 
be sustained in the absence of a robust US military commitment to the 
Alliance. That is the price of leadership, and it is one whose returns 
have been consistently advantageous to the United States.

    The Chairman. Thank you. Thank you very much. We sincerely 
appreciate that, Mr. Brzezinski.
    Now we will hear from Dr. Karen Donfried. And she is 
president of the German Marshall Fund of the United States, a 
nonprofit organization with whom most of us are familiar, 
dedicated to strengthening transatlantic cooperation.
    Before joining the German Marshall Fund, Dr. Donfried was 
the special assistant to the president and senior director for 
European Affairs on the National Security Council. Dr. Donfried 
served as a national intelligence officer for Europe on the 
National Intelligence Council, a Europe specialist at the 
Congressional Research Service. From 2003 to 2005 she was 
responsible for the Europe portfolio on the U.S. Department of 
State's policy planning staff.
    Dr. Donfried is a member of the board of trustees of 
Wesleyan University, her undergraduate alma mater. She serves 
as a senior fellow at the Center for European Studies at 
Harvard University, and is a member of the Council on Foreign 
Relations and the American Council on Germany.
    Dr. Donfried has a Ph.D. and an MALD from the Fletcher 
School of Law and Diplomacy at Tufts University, and a 
bachelor's in government and German from Wesleyan University.
    Dr. Donfried, welcome. The floor is yours.

STATEMENT OF DR. KAREN DONFRIED, PRESIDENT, THE GERMAN MARSHALL 
           FUND OF THE UNITED STATES, WASHINGTON, DC

    Dr. Donfried. Chairman Risch, ranking member Menendez, 
other members of the committee, thank you for this opportunity 
to address NATO's value to the United States. I just want to 
say the views that I will express will be my own, not those of 
the German Marshall Fund.
    As you noted, in two days, on April 4, NATO turns 70. And 
that truly is a remarkable achievement. The secret to NATO's 
longevity has been its ability to adapt to and meet the 
challenges of a changing strategic landscape. Chairman Risch, 
ranking member Menendez, you both did a wonderful job of 
reviewing that history, so I will not.
    NATO, which as you mentioned, is both a political and a 
military alliance, has been a key pillar upholding the rules-
based international order that the United States has long 
promoted. I would like to highlight three opportunities that I 
see concerning our relationship with and role in NATO: First, 
burden sharing; second, NATO's relationship with the European 
Union; and third, the challenge posed by China.
    First, let me address the debate about burden sharing, 
which goes back to the earliest days of the alliance. Defense 
spending alone tells us surprisingly little about a country's 
actual military capabilities. In 2018, NATO Europe spent $264 
billion on defense, which represents the second largest defense 
budget in the world, outpaced only by the United States. That 
European total represents about 1.5 times China's official 
defense budget and roughly 4 times Russia's.
    We need to focus not only on the total level of defense 
spending by allies, but equally, as you noted, on what that 
spending is allocated to. To be sure, allies need to spend 2 
percent of their GDP on defense, a goal they recommitted 
themselves to in 2014. But it matters just as much that they 
spend 20 percent of those outlays on major new equipment, 
including the related research and development. That 20 percent 
guideline measures the scale and pace of modernization. If 
allies' equipment is obsolete or interoperability gaps widen, 
NATO will be weakened.
    Moreover, some expenditures that count toward the 2 percent 
target, such as outlays from military pensions, contribute 
little, if at all, to current military readiness. These nuances 
are often lost in the current debate over allies' contributions 
to NATO.
    Second, NATO needs to cooperate in more meaningful ways 
with the European Union. The post-war recipe for a stable, 
peaceful, democratic, and prosperous Europe included two 
critical ingredients, U.S. engagement and European integration. 
The EU shares 22 members with NATO. And the EU has made 
significant strides over the past year on defense cooperation, 
making the moment ripe for enhanced NATO engagement with the 
EU.
    There are many forces pulling Europe apart today. From the 
drama of Brexit to the rise of illiberal populism. Those can 
often overwhelm unity. Given the direct interest the United 
States has in Europe's future, we should strive not to be yet 
another force dividing EU members. The European Union is not a 
foe. It is a partner, and a very important one at that.
    Admittedly, the United States has long been skeptical of 
efforts by the EU to enhance defense cooperation. We focused 
more on the risks of an enhanced EU defense role, such as 
unnecessary duplication of NATO capabilities, than the possible 
benefits.
    In a variety of areas, enhanced NATO-EU cooperation could 
make a real difference. And I would actually highlight military 
mobility as one of those. A more integrated transport network 
on the European continent is critical for both organizations, 
and we also could benefit from a more robust response to hybrid 
threats, and enhanced counterterrorism capabilities. NATO will 
engage more seriously with the EU only if Washington encourages 
such cooperation.
    Third, a rising China challenges both sides of the 
Atlantic. The primary concern in U.S. national security today 
is the reemergence of long-term strategic competition from 
China and Russia. NATO has a robust strategy concerning Russia, 
but China barely features in alliance discussions. This can and 
should change.
    Europe and Canada recognize the geopolitical challenge that 
China poses. Just last month, for the first time, the EU 
identified China as ``an economic competitor in pursuit of 
technological leadership and a systemic rival promoting 
alternative models of governance.'' If the United States wants 
to mount a successful response to China's rise, we will need 
close cooperation from all of our democratic allies.
    The security implications of China's increasing presence in 
Europe are clear. Our European allies worry about how to manage 
China's expanding footprint on the European continent, whether 
through strategic infrastructure investments, by way of the 
Belt and Road Initiative, or through critical digital 
infrastructure like Huawei's 5G technology. These issues need 
to rise to the top of NATO's agenda.
    Let me conclude by underscoring the vital role I see 
Congress playing in providing leadership in the alliance. Our 
allies have grown increasingly concerned about mixed signals 
emanating from the Administration about NATO's value. They had 
believed that the alliance was an enduring strategic 
commitment, rather than a shifting arrangement based on 
transactions.
    Whether through your support for increased funding for the 
European Deterrence Initiative, the reestablishment of the 
Senate NATO Observer Group, the impressive congressional 
participation in the Munich Security Conference in February, or 
the bipartisan initiative to the NATO Secretary General to 
address a Joint Session of Congress tomorrow, your growing 
engagement goes a long way to reassuring our allies about U.S. 
commitment.
    Anniversaries are not only for celebrating. Remembering 
past achievements can inspire, but neither nostalgia nor hope 
is a policy. NATO members need to unify around a common sense 
of purpose, and recommit their countries to investing more 
incredible capabilities. The reason to do so is not because the 
United States is asking; it is because the current strategic 
reality demands it.
    Thank you.
    [The prepared statement of Dr. Donfried follows:]

                Prepared Statement of Dr. Karen Donfried

    Chairman Risch, Ranking Member Menendez, and other members of the 
committee: Thank you for the opportunity to appear before the Committee 
on Foreign Relations to address NATO's value as we celebrate the 70th 
anniversary of the alliance. I would like to make clear that the views 
I express are mine alone. I am not speaking for the German Marshall 
Fund of the United States, which does not take institutional positions 
on policy issues.
    In 2 days, on April 4, NATO turns 70. This is truly a remarkable 
achievement. Alliances typically disband shortly after the original 
threat that gave rise to their creation subsides. One historical study 
found that alliances last, on average, for 17 years.\1\
---------------------------------------------------------------------------
    \1\ Patrick Warren, ``Alliance History and the Future NATO: What 
the Last 500 Years of Alliance Behavior Tells Us about NATO's Path 
Forward,'' Brookings Policy Paper, June 30, 2010, p. 48.
---------------------------------------------------------------------------
    Not so with NATO. The secret to NATO's longevity has been its 
ability to adapt and remain relevant to a changing strategic landscape 
and meet the resulting new challenges. NATO was established to deter 
the Soviet threat. But when the cold war ended, NATO played an 
important role by stabilizing the new democracies of Central and 
Eastern Europe. There were also calls for NATO to move ``out of area'' 
to meet shared security challenges. And NATO responded by expanding its 
mission when the alliance fought to restore peace in the Balkans. With 
the attacks of 9/11, NATO, for the first and only time, invoked Article 
5--and it did so, notably, to come to the defense of the United States. 
Ever since, NATO allies have been vitally important partners in the 
fight against terrorism. NATO's most significant operational commitment 
to date is the mission in Afghanistan, starting with the International 
Security Assistance Force under NATO leadership from 2003 to 2014 and 
followed by Resolute Support to train, advise and assist Afghan 
security forces. Finally, and most recently, NATO returned to its core 
business of deterrence and collective defense following Russia's 
illegal annexation of Crimea, Ukraine's sovereign territory, in 2014, 
while continuing to pursue crisis management. These are the chapters of 
NATO's 70 years of action. Throughout, NATO--both a military and a 
political alliance--has been a key pillar upholding the rules-based 
international order that the United States has long promoted.\2\
---------------------------------------------------------------------------
    \2\ The other pillar is the liberal compact that Bob Kagan 
describes eloquently in The Jungle Grows Back (New York, 2018, pp. 135-
6): ``In exchange for nations forgoing traditional geopolitical 
ambitions and ceding the United States a near monopoly of military 
power, the United States would support an open economic order in which 
others would be allowed to compete and succeed; it would not treat 
members of the order, and particularly allies, simply as competitors in 
a zero-sum game; it would through participation in international 
institutions, an active multilateral diplomacy, and the articulation of 
shared liberal values support and sustain a sense of community among 
those nations that made common cause on behalf of those shared values 
and interests.''
---------------------------------------------------------------------------
    As NATO's mission has expanded, its membership has grown too, from 
the original 12 countries to 29 today. The next country likely to walk 
through NATO's ``open door'' is the Republic of North Macedonia, with 
the accession protocol concluded and that protocol now being ratified 
by existing members.
    NATO has powerfully served American interests. The political, 
economic, and security interests of the United States require a stable 
Europe. We learned this lesson through the tragedy of two world wars, a 
lesson that must never be forgotten even as those tragic events recede 
from us in time. As Winston Churchill famously observed in 1948, 
``Those who fail to learn from history are condemned to repeat it.''
    Now, at a time when we are experiencing a global shift of power and 
fierce competition for domestic resources, having reliable allies 
willing to share the burden of collective defense has become only more 
important for U.S. interests. NATO is unique in providing a command 
structure, multinational interoperability, and deployable capabilities. 
That is why NATO is so often referred to as the partner of first resort 
for the United States. The challenge today is how to continue to adapt 
and modernize this alliance to meet the challenges of today and 
tomorrow.
    Much has already been said and written about NATO at 70.\3\ I won't 
review those points and provide a comprehensive overview here. Instead, 
my focus will be twofold. First, I will highlight opportunities 
relating to burden-sharing, NATO's relationship with the European 
Union, and the challenge posed by China. Second, I will discuss the 
vital role Congress plays in providing U.S. leadership in the alliance.
---------------------------------------------------------------------------
    \3\ See, for example, Transcript of ``NATO at 70: An Indispensable 
Alliance,'' Committee on Foreign Affairs, House of Representatives, 
March 13, 2019; and Douglas Lute and Nicholas Burns, ``NATO at Seventy: 
An Alliance in Crisis,'' Harvard Kennedy School Report, February 2019.
---------------------------------------------------------------------------
 nato burden-sharing: shift the focus to european defense capabilities
    The debate about burden-sharing among NATO members goes back to the 
earliest days of the alliance. More recently, near the end of his 
tenure as Secretary of Defense in June 2011, Robert Gates memorably 
lamented being ``the latest in a string of U.S. defense secretaries who 
have urged allies privately and publicly, often with exasperation, to 
meet agreed-upon NATO benchmarks for defense spending.'' He stood in 
Brussels and challenged Europe, explaining that ``it will take 
leadership from political leaders and policymakers on this continent. 
It cannot be coaxed, demanded or imposed from across the Atlantic.'' 
\4\ Those words remain true today.
---------------------------------------------------------------------------
    \4\ Remarks by Secretary Gates at the Security and Defense Agenda, 
Brussels, Belgium, June 10, 2011.
---------------------------------------------------------------------------
    Defense spending alone--especially viewed in a vacuum without 
appropriate context--tells us surprisingly little about a country's 
actual military capabilities. In 2018, NATO Europe spent $264 billion 
on defense, which represents the second largest defense budget in the 
world, outpaced only by the United States. That European total 
represents 1.5 times China's official defense budget ($168 billion) and 
roughly four times Russia's $63 billion.\5\ Even viewed in this 
context, defense spending by allies needs to increase, but other 
metrics matter too, namely, what those defense euros are spent on. The 
inefficiencies, redundancies, and clash of strategic cultures across 
Europe's national militaries are sobering.
---------------------------------------------------------------------------
    \5\ Lucie Beraud-Sudreau, ``On the up: Western defence spending in 
2018,'' IISS Military Balance Blog, Feb. 15. 2019.
---------------------------------------------------------------------------
    Thus, we need to focus not only on the total level of defense 
spending by allies, but equally on what that spending is allocated to. 
To be sure, allies should spend 2 percent of their GDP on defense, a 
target they recommitted themselves to in 2014 following Russia's 
annexation of Crimea. But it matters just as much that they spend 20 
percent of those outlays ``on major new equipment, including related 
Research & Development.'' \6\ That 20 percent guideline measures the 
scale and pace of modernization. Allies can spend all the money they 
want, but if their equipment is obsolete or interoperability gaps 
widen, NATO will be weakened. Moreover, some expenditures that count 
toward the 2 percent target--such as outlays for military pensions--
contribute little if at all to current military readiness. These 
nuances are often lost in the current debate over the allies' 
contributions to NATO.
---------------------------------------------------------------------------
    \6\ Wales Summit Declaration, North Atlantic Treaty Organization, 
Sept. 5, 2014.
---------------------------------------------------------------------------
       nato's cooperation with the european union: more is needed
    One thing we have learned from history and two world wars is that 
conflict in Europe inevitably drew the United States in. Thus, the 
post-war administration of Harry Truman encouraged European integration 
to ensure the countries of Europe would never go to war again. The 
Marshall Plan was one of the first steps on this path. Today's European 
Union began with a European Coal and Steel Community to 
``communitarize'' the key instruments and industries of war and provide 
a framework for the peaceful coexistence of France and Germany, in 
particular. We often forget that the post-war recipe for a stable, 
peaceful, democratic, and prosperous Europe included two key 
ingredients: U.S. engagement and European integration.
    The disdain President Trump directs at the European Union (EU) is 
singular and has a negative impact on political cohesion within NATO 
given that 22 of NATO's 29 allies are also EU members. The European 
Union is not a foe; it is a partner, and a very important one at that. 
To cite just one example, the United States and the European Union have 
the largest trade and investment relationship in the world.
    Today, there are many more factors pulling Europe apart--from the 
drama of Brexit to the rise of illiberal populism--than encouraging 
unity. These centrifugal forces show no signs of abating. Given the 
direct interest the United States has in Europe's future, we should 
strive not to be yet another factor dividing EU members.
    The United States has long been skeptical of EU efforts to enhance 
defense cooperation. Madeleine Albright, during her tenure as Secretary 
of State, articulated that European efforts should not duplicate NATO's 
efforts or capabilities, discriminate against allies who are not EU 
members, or decouple Europe's security from that of other NATO allies. 
To date, the American reaction has focused on the risks of an enhanced 
EU defense role, rather than on the possible benefits. Within the EU, 
Britain, which along with France has the most capable European 
military, has been least enthusiastic about EU defense initiatives. The 
Brexit process has already resulted in a less engaged Britain, which, 
in turn, has translated into greater EU progress in this area.
    NATO has long-standing, but under-developed, cooperation with the 
EU. The reasons for that are many and include this American and British 
skepticism, as well as the EU's propensity to under-deliver on 
ambitious initiatives. That said, the EU has made significant strides 
over the past year and, in my judgment, the moment for enhanced NATO 
engagement with the EU is ripe. As for concerns about EU defense 
efforts wasting finite resources on unnecessary duplication like 
creating an independent command structure, those concerns are best 
addressed by closer cooperation between NATO and the EU precisely to 
avoid such duplication.
    Today, the European Union may be better poised than NATO to 
increase the political will of its members to step up their defense 
efforts, especially at a time when an American president, who is deeply 
unpopular in many European countries, is perceived as the one making 
demands not out of a commitment to a strong alliance, but as a 
condition for continued U.S. participation. That stance has fueled 
doubts about the reliability of the U.S. security guarantee and sparked 
a renewed desire for European strategic autonomy in some quarters, 
particularly France.
    Where could more serious NATO-EU cooperation make a real 
difference? Take military mobility on the European continent, which is 
a critical concern for both organizations. At NATO's Brussels Summit in 
July of last year, the alliance updated its Command Structure, which 
now includes a new Enabling Command based in Germany to improve the 
movement of troops and equipment within Europe. The goal is to ensure 
NATO has ``the right forces in the right place at the right time.'' \7\ 
One month earlier, in June 2018, the European Commission announced that 
its next long-term EU budget 2021-2017 includes 6.5 billion euros to 
adapt Europe's transport network to military requirements and thus 
improve military mobility.\8\ This EU investment will be a meaningful 
contribution to a stronger NATO as well. Military mobility is just one 
example that suggests concrete synergies could result from joint, 
rather than simply complementary, efforts.
---------------------------------------------------------------------------
    \7\ Brussels Summit Key Decisions 11-12 July 2018, North Atlantic 
Treaty Organization, Nov. 2018.
    \8\ ``EU budget: Stepping up the EU's role as security and defence 
provider,'' Press Release, European Commission, June 13, 2018.
---------------------------------------------------------------------------
    NATO Secretary General Stoltenberg champions EU efforts to increase 
defense cooperation, arguing that NATO needs those efforts to succeed 
because they can contribute to fairer burden-sharing. He has emphasized 
that ``after Brexit 80 percent of NATO's defense expenditures will come 
from non-EU NATO allies.'' \9\ If the EU can help create the political 
will for its members--22 of which, as previously noted, are NATO 
allies--to spend more on defense and develop new capabilities that will 
be good for both organizations, whether the goal is increased military 
mobility, a more robust response to hybrid threats or enhanced counter-
terrorism capabilities. NATO will engage more seriously with the EU, 
however, only if Washington encourages such cooperation.
---------------------------------------------------------------------------
    \9\ Doorstep Statement by NATO Secretary General Jens Stoltenberg 
prior to the European Union Foreign Affairs Council meeting, North 
Atlantic Treaty Organization, Nov. 20, 2018. See also Ryan Heath, ``8 
NATO countries to hit defense spending target,'' Politico, July 5, 
2018.
---------------------------------------------------------------------------
       a rising china: a challenge for both sides of the atlantic
    The 2018 National Defense Strategy identifies the primary concern 
in U.S. national security as the reemergence of long-term strategic 
competition from China and Russia, both of which are revisionist, 
authoritarian powers. NATO has a robust strategy concerning Russia, 
whereas China barely features in Alliance discussions. The lead article 
in The Economist's recent special report on NATO at 70 concluded by 
asking: ``How can the transatlantic alliance hold together as America 
becomes less focused on Europe and more immersed in Asia? That is a 
vital question, but so far NATO has barely started tackling it.'' \10\
---------------------------------------------------------------------------
    \10\ ``Mature reflection,'' Special report NATO at 70, The 
Economist, March 16, 2019, p. 5.
---------------------------------------------------------------------------
    The reality is that China can and should be a shared strategic 
concern of NATO allies. Europe and Canada also see the geopolitical 
challenge China poses. And if the United States wants to mount a 
successful democratic response to the rise of an assertive, 
authoritarian China, it will need close cooperation with all of its 
democratic allies. Allies make the United States stronger. That 
statement is no less true in 2019 than it was in 1949.
    China's threat to NATO allies is not a military one. But China has 
become a serious competitor politically, economically, and 
technologically. The United States, Europe and Canada need to align 
much more closely in terms of how they approach China. NATO allies 
should discuss their efforts to screen foreign direct investment in 
strategic infrastructure, as well as in key technology sectors. NATO 
should also deepen its military partnerships with allies in the 
Pacific, including Japan, South Korea, Australia and New Zealand.
    Our European allies used to look at China's rise and worry about 
how the growing competition between the United States and China would 
affect them. Now, the Europeans worry themselves about how to manage 
China's expanding footprint on the European continent--whether through 
strategic infrastructure investments by way of the Belt and Road 
Initiative or through critical digital infrastructure like Hauwei's 5G 
technology. China's interest in Europe extends from the High North to 
Greece in the south. And China's commercial investments are resulting 
in political influence. That reality offers an opportunity for 
transatlantic coordination and cooperation.
    China has proven to be adept at dividing Europe. On March 23, Italy 
became the first G7 member to sign a memorandum of understanding with 
China's Belt and Road Initiative; 13 smaller EU countries had already 
done so.\11\
---------------------------------------------------------------------------
    \11\ Lisbeth Kirk, ``Europe shifts gears to balance relations with 
China better,'' euobserver, March 13, 2019.
---------------------------------------------------------------------------
    In the immediate run-up to Chinese President Xi's visit to Rome, on 
March 12, the European Commission issued a strategic communication 
laying out 10 proposals for dealing with Beijing that EU leaders later 
endorsed.\12\ The Financial Times called the document ``a turning point 
in EU attitudes toward Beijing.'' \13\ For the first time, the EU 
identified China as ``an economic competitor in pursuit of 
technological leadership, and a systemic rival promoting alternative 
models of governance.'' The document stated that ``the EU and its 
Member states can achieve their aims concerning China only in full 
unity.'' \14\
---------------------------------------------------------------------------
    \12\ Hans von der Burchard, ``EU slams China as `systemic rival' as 
trade tension rises,'' Politico, March 12, 2019.
    \13\ ``EU must show unity in its relations with China,'' Financial 
Times, March 29, 2019, p. 10.
    \14\ ``Commission reviews relations with China, proposed 10 
actions,'' Press Release, European Commission, March 12, 2019.
---------------------------------------------------------------------------
    In that spirit of unity, French President Macron invited German 
Chancellor Merkel and European Commission President Juncker to join him 
on March 26 in Paris for the final day of the Chinese President's visit 
to France. Macron enjoined Xi to ``respect the unity of the European 
Union and the values it carries in the world.'' \15\ The next 
opportunity for the EU to showcase a united front will be at the EU's 
Summit with China on April 9. Overcoming individual national interests 
with regard to China will not be easy for European countries. The 
United States needs to engage regularly and actively in discussing 
China's strategy with its allies, because the American voice carries 
significant weight in these intra-European discussions.
---------------------------------------------------------------------------
    \15\ ``Xi, Merkel, Macron and Juncker meet in Paris,'' DW, March 
26, 2019.
---------------------------------------------------------------------------
    The security implications of China's increasing presence in Europe 
are clear. Chinese investment in strategic infrastructure--from ports 
to tunnels--means that European efforts to screen with greater care 
foreign direct investment are urgent. European reliance on Hauwei's 5G 
technology could facilitate surveillance by China's security services. 
For 70 years, the superior quality of allied military power has rested, 
in part, on the technological edge the United States has held globally. 
Thus, how NATO allies manage the ongoing technological revolution has 
direct implications for NATO's strength. These issues need to rise to 
the top of NATO's agenda. NATO-EU consultations on how to engage with 
China should follow closely.
       congressional leadership on nato: more valuable than ever
    Congressional engagement matters, both at home and abroad. Our 
allies have grown increasingly concerned about mixed signals emanating 
from the Administration about NATO's value. They had believed that the 
alliance was an enduring strategic commitment, rather than a shifting 
arrangement based on transactions.
    Many Members of Congress share these same concerns and have become 
increasingly active in voicing their support for NATO. As the lead 
nation in the alliance, what the United States says matters immensely 
to the other allies. Recently, Congress has stepped forward to 
reinforce U.S. leadership in NATO. In February, over 50 Members of 
Congress, from Senate Judiciary Chairman Graham to Speaker Pelosi, 
attended the Munich Security Conference--the largest congressional 
delegation in the over 50-year history of this annual, high-level 
gathering. Even more recently, in a valuable expression of 
bipartisanship, House Speaker Pelosi and Senate Majority Leader 
McConnell invited NATO's Secretary General, Jens Stoltenberg, to 
address a Joint Session of Congress. Stoltenberg will be the first NATO 
Secretary General ever to enjoy this privilege tomorrow. This rising 
congressional engagement with European counterparts, strengthened by 
the reestablishment of the Senate NATO Observer Group last year, goes a 
long way to reassuring our allies about U.S. commitment.
    Ever since last July's NATO Summit in Brussels, rumors have been 
flying that the President wants to pull the United States out of NATO. 
Again, Congress has sought to reassure the Allies. In the immediate 
run-up to that Summit, the Senate voted 97-2 to reaffirm the U.S. 
commitment to the collective defense of the Alliance. This January, the 
House of Representatives passed the NATO Support Act by a bipartisan 
vote of 357 to 22 , thus ``reject[ing] any efforts to withdraw the 
United States from NATO'' and prohibiting any use of Federal funds for 
that purpose. Also, in January, a bipartisan group of Senators 
reintroduced a joint resolution requiring the President to seek the 
advice and consent of the Senate to withdraw the United States from 
NATO. The strong show of bipartisan congressional support for NATO at 
this time of deep political polarization speaks volumes. Our allies 
have noticed.
    Congressional leadership on NATO has advanced trust in the U.S. 
political and security commitment among U.S. allies. Congress's 
oversight role and power of the purse are significant. Congressional 
support for increased funding for the European Deterrence Initiative 
has enhanced our deterrence and defense posture in Europe, making real 
that security commitment. The most immediate challenge to NATO 
continues to be deterring further Russian aggression in Europe's East.
    Alliances depend on shared interests, common values, and trust. 
Trust has taken a beating recently. A strong, bipartisan majority in 
Congress has been steadfast in emphasizing the enduring commitment of 
the United States to its allies. As Ranking Member Menendez said 
eloquently in Brussels this February, ``the United States is stronger, 
safer, and more prosperous when we work in concert with our allies in 
Europe.'' \16\
---------------------------------------------------------------------------
    \16\ Keynote Speech by Senator Menendez on ``Transatlantic 
Relations in a Changing World,'' Feb. 18, 2019, hosted by GMF in 
Brussels, Belgium (www.gmfus.org).
---------------------------------------------------------------------------
    Congress's engagement could prove to be the critical variable for 
unifying transatlantic partners around a shared goal of strategic 
responsibility. Congress can and should articulate a bipartisan vision 
of NATO's future that can serve to strengthen alliance cohesion. Having 
European military forces that are more effective, efficient, and 
capable is in the interest of every alliance member. It is hard to 
imagine future scenarios in which Europeans will not be called on to 
take greater responsibility, especially in their neighborhood. 
Anniversaries are not only for celebrating. Remembering past 
achievements can inspire, but neither nostalgia nor hope is a policy. 
NATO members need to unify around a common sense of purpose and 
recommit their countries to investing more in credible capabilities. 
The reason to do so is not because the United States is asking; it is 
because the current strategic reality demands it.

    The Chairman. Well, our thanks to both of you. Those 
certainly were outstanding remarks. We are going to open it up 
to questions now. I will start with one briefly, and then turn 
it over to the ranking member.
    Last night I gave a similar speech to a group of NATO 
policy planners from around the--of our allies. It was a pretty 
good-sized group. They were all represented there. And this was 
their inaugural meeting. And I told them I thought if I was 
planner, I would think that meeting more than once every 70 
years might be helpful. They acknowledged as much, and promised 
to do better in the future.
    But in any event, I took questions, and their questions, 
most of them were pretty straightforward, much along the lines 
what the ranking member and I have talked about. But I had one 
question that, Dr. Donfried, you referred to, and that was, it 
was a speech similar to what I gave here at the beginning. And 
it was modestly critical of the bureaucracy when it came to 
infrastructure. And trying to be self-deprecating I told them 
we Americans are familiar with the bureaucracy. We know it when 
we see it.
    But in any event, one of the--I won't identify the country, 
but one of them got up and said, ``Well, we appreciate that. We 
agree with you.'' And I am paraphrasing. ``So how much are you 
guys going to kick in?'' All right. It wasn't that direct, but 
it was a question that actually took me back a little bit. They 
obviously are not familiar with politics here, knowing that we 
have not been able to pass an infrastructure bill here in the 
United States, which we badly need and want. But in addition to 
that, of course, we don't have funding for it.
    So I explained as delicately as I could the precarious 
financial position of the country, and moved on. But I would 
like to hear your thoughts on that. I would say that it is my 
sense that the rest of the audience knew that the questioner 
was tilting at a windmill, but nonetheless, I thought they 
might be at least feeling good about the kind of question that 
he was asking, and being sympathetic with the position.
    So your thoughts, please, both of you, on that issue.
    Mr. Brzezinski. On military mobility, the EU is undertaking 
an important initiative. As part of its Connecting of Europe 
Facility, it is planning to dedicate or earmark 6.5 billion 
euros for the budget period which I think is 2021 to 2027. That 
money is going to be allocated specifically for upgrading 
roads, bridges, rail heads, so that they can handle heavy 
military equipment. So that is an important initiative, and the 
EU should be complimented for undertaking that.
    There is a second initiative worth noting, and that is the 
Three Seas Initiative. It is a Central European effort to 
accelerate the development of cross-border, transport energy 
and telecom infrastructure among the countries between the 
Baltic, Black, and Adriatic Seas. And that, of course, has a 
big road and rail component to it, and could be leveraged to 
support transport routes that can handle heavy equipment and 
move military equipment east and west, and north and south. It 
merits a U.S. Government support.
    The Chairman. Thank you. Dr. Donfried?
    Dr. Donfried. I completely agree with Ian's point about the 
fact that the EU is dedicating resources--6.5 billion euros--to 
modernizing their infrastructure. This was striking to me, 
because we saw last July, at the last NATO summit, that NATO 
revamped its command structure. And one of the new commands 
that was added was an enabling command based in Ulm, Germany. A 
focus of that command is improving the movement of troops and 
equipment through Europe.
    There was a great quote at the time that the goal of this 
new command is to ensure that NATO has the right forces in the 
right place at the right time. And I think those two examples 
illustrate the extent to which there are synergies between what 
NATO is trying to do and what the EU is trying to do, and that 
we could benefit from those more.
    Thank you.
    The Chairman. Thank you. Senator Menendez.
    Senator Menendez. Thank you. Thank you both for very 
insightful testimony. Let me ask you a simple question. Should 
the Senate pass legislation which would require a Senate vote 
in the event that any administration seeks to withdraw from 
NATO.
    Dr. Donfried. Yes. Should I say more? I think it is very--
--
    Senator Menendez. Yes would do, but I am happy to hear more 
if you want to do that. Mr. Brzezinski.
    Mr. Brzezinski. I think it is important for Congress, the 
Senate, and the House of Representatives to underscore their 
commitment to NATO, their determination to support U.S. 
Government in the execution of all NATO responsibilities. While 
I appreciate greatly the sentiment behind this proposed 
legislation, I am a little concerned that it creates an 
impression that once passed, it solves the problem. But it 
doesn't necessarily so, because as commander-in-chief, as our 
chief diplomat, the U.S. president can basically stand down 
U.S. military personnel, U.S. diplomatic personnel, and tell 
them to do nothing on NATO, and thereby draw NATO to a full 
stop.
    Senator Menendez. But that would be an--it is very 
possible, but that would be an extension to the extent that if 
you are, then not committed to Article V either, right? If you 
are going to stand down and not respond, then you are also not 
committed to Article V. So you have hollowed out the very 
existence of your participation in NATO. If anything, you have 
violated your agreement to NATO.
    So my view simply is, in my visits to both the EU and the 
Munich Security Conference, it became very vividly clear to me 
that there is a real angst among our allies about this ironclad 
commitment that they have always thought existed. And so I 
think a reassurance is that, well, before any president, this 
or any future one, contemplates that, having the vote of the 
Senate will be essential.
    And I think that because the allies know largely how the 
Senate feels, including the question of 2 percent and the 20 
percent, but nonetheless that there is an ironclad reality to 
the commitment to NATO, that that would be reassuring. So I 
don't think it does any harm, but I appreciate your point.
    Let me ask you both, how would you assess the diplomatic 
approach taken by the Administration in urging countries to 
increase defense spending, which in Germany's case appears to 
have slowed somewhat? Are we experiencing a backlash against 
the assertive diplomatic approach in Berlin taken by the 
Administration?
    Dr. Donfried. This in many ways connects to your first 
question, Senator Menendez, because alliance fundamentally 
rests on shared interests, common values, and alliance 
cohesion. That alliance cohesion, part of which is based on 
trust, trusting that your allies are there to defend you, and 
that they are spending the proper amount on defense, so that 
they have capabilities that allow the alliance to perform the 
tasks it needs to perform. I think the challenge resulting from 
the way we have been discussing the level of defense spending 
is that it can erode alliance cohesion.
    Because some of our allies are feeling that we are using it 
almost as a threat, if you do not do this, then we, the U.S., 
will pull out of NATO. And that erodes alliance cohesion. And 
that is why in my remarks I was trying to stress that as 
important as that 2 percent of GDP spent on defense is, it is 
critically important how that money is spent. And I am hopeful 
that if we reframe that debate and focus on the capabilities, 
on the outputs from that defense spending, it may allow us to 
move in a more constructive direction.
    Senator Menendez. Mm-hmm.
    Dr. Donfried. Now to your specific question about Germany, 
I do think every NATO member should feel bound by the 
commitments agreed to most recently at the Wales summit in 
2014. It was all NATO members that recommitted themselves to 
the 2 percent guideline.
    Now it is not like a club and dues. It is saying we are 
going to move toward spending 2 percent of our GDP on defense 
by 2024. And I think all of us who care about the alliance were 
disconcerted to see Germany's budget plan suggesting that 
German defense spending would actually decline in future years. 
So I do think we need to keep pressure on our allies to spend 
more, but we also want to engage in that conversation as 
constructively as possible.
    Senator Menendez. Yes. Having listened to Chancellor Merkel 
at the Munich Security Conference I am not sure that our 
approach there is the best one to achieve the mutual goal that 
we have.
    Finally, let me ask you a question, Dr. Donfried. You said 
before for President Trump alliances are not something 
enduring, they are something transactional. I wonder if you 
could expand on that. How is the President's rhetoric affecting 
European confidence in the U.S. security guarantees to Europe? 
What long-term effects do you anticipate on transatlantic 
relations if this is the continuum?
    Dr. Donfried. Let me start by underscoring the fact that 
the United States is the lead nation in NATO. When you read the 
North Atlantic Treaty, if a country wants to withdraw from the 
alliance, where do they send that notification? To Washington. 
So it is somehow ironic that today we are talking about the 
possibility that the U.S. might withdraw from that alliance.
    And I do think that the U.S. security guarantee to Europe 
has been critical to post-war peace, stability, and prosperity 
on the European continent. The reason the U.S. was supportive 
of creating the NATO alliance in 1949 was not an act of 
benevolence. It had beneficial aspects for others, but it was 
very much in our self-interest. We had had the experience of 
two world wars, and did not want to return to the European 
continent in a future world war. So just to remind why this 
alliance was something we felt was in our enlightened self-
interest.
    And from that point on, our Canadian and European allies 
have felt that that American security guarantee was something 
enduring. And yes, there are important differences of opinion 
that we have had over the seven decades. You could point to the 
disagreement over or the crisis over the Suez Canal in the 
1950's; in every decade there have been serious crises. Our 
stationing of intermediate nuclear forces in Europe, the Iraq 
war in 2003. But we have always believed that at the end of the 
day we were there for each other, and that Article VI bound all 
of us.
    What has happened over the past year is in part because of 
specific comments the President has made, suggesting that our 
commitment to our allies is not enduring, but rather depends on 
very explicit deals, particularly on defense spending, that we 
might actually not be there in future. And I think that has 
been one factor that has been damaging to alliance cohesion.
    Thank you.
    The Chairman. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman. Thanks to the 
witnesses. It is great to have you here.
    In Senator Risch's opening comments he referred to NATO as 
the preeminent military alliance in the world, also used the 
word most successful military alliance. Senator Menendez would 
have layered superlatives on, too, but he didn't have to, 
because the chairman had put the superlatives on the table.
    Mr. Brzezinski, you used the words ``essential'' and 
``indispensable,'' and then Dr. Donfried, in your written 
testimony you say that ``NATO has powerfully served American 
interests as well as global interests, interests of our NATO 
partners.'' I gave a speech at the French-American Foundation 
in Paris two Thursdays ago about the 70th anniversary of NATO, 
and I was very interested in the questions that I got.
    The issue of mixed signals, Dr. Donfried, that you put on 
the table, Congress taking some strong action on funding, the 
President sometimes suggesting that we might get out of NATO, 
maybe it is to negotiate for more contributions. And you can 
understand that negotiating behavior. But I was interested in 
this, and it kind of goes to the question that Senator Menendez 
asked you, Mr. Brzezinski. The question I was really getting 
was less about what the president is saying than this: Are the 
President's comments indicative of what the American public 
think?
    Sylvie Kaufman is the former editor of Le Monde, and she 
was my interviewer after my speech. And she was really focusing 
on the President's comments as more generally, the way we read 
it is that the American public is losing interest in this 
alliance.
    So I have a bill like Senator Menendez does. It is slightly 
different. The bill that I have said that no president can 
remove from NATO without doing one of two things, either 
getting the Senate to affirm that by two-thirds vote, which we 
used to get into the treaty, or by an act of Congress. It would 
have to go through both houses with veto and override 
possibility. But a president could not unilaterally do it.
    And as we talked about the bill there, it was interesting 
the perception from Sylvie Kaufman and others that that is less 
of a bill about the president as it would be about a bill about 
the legislature, which is the American people's elected Article 
I branch affirming just how much we believe that this is the 
preeminent military alliance in the world, and the most 
successful in the world, essential and indispensable.
    And so it would be the case, as Mr. Brzezinski said, even 
if we passed it, a president could start to stand down. But the 
message that we would send if we did pass something like this 
is not just what Congress thinks about it, but what Congress 
thinks about it, being elected from 435 congressional 
districts, being elected from 50 states, that we view this as 
so very, very important.
    I had hoped the bill that I introduced, which is Senate 
Joint Resolution, I say I introduced. Twelve of us introduced 
it. Six democrats, six republicans. Very bipartisan. And I know 
the same is true of Senator Menendez's bill.
    I had hoped that we might be able to deal with that matter 
in connection with the NATO 70th. We do not have to deal with 
it on the week of the NATO 70th, but I do think anniversaries, 
as Dr. Donfried said, are not just times to celebrate, they are 
also times to chart a new course, and commit, and recommit.
    With proposals on the table that are as bipartisan as 
these, I would hope that this committee might take up one of 
these and find a path forward where we can clearly state that a 
Senate that affirmed NATO at its foundation, and that will vote 
soon on a new nation's entrance into NATO, which the Senate 
does, is also taking the position that there will be no 
unilateral executive withdrawal under this or any other 
president from NATO. I think that is so important, and I think 
the time is right to do it.
    I will admit to a little bias, too. There is a joint forces 
command in NATO in Norfolk. This is something that, together 
with the presence in Brussels, and some of the other cities 
within NATO where there is a little bit of a command presence. 
It has been something that has been powerful in connection with 
the Atlantic command in the United States Navy.
    But I just feel like if it is preeminent, and the best in 
the world, then it is. If it is the most successful, if it is 
indispensable, if it is essential, if it has protected U.S. 
interests, then Congress ought to say it not so much on our 
behalf, Congress should say it on behalf of the American 
public, and clarify that you can count on us. You can count on 
us for the long haul. We will have disputes, and debates, and 
things will happen, and there will be disagreements, but that 
is what we want to send. That is the Nation we want to be. You 
can count on us.
    So I appreciate the witnesses being here, and appreciate 
the chair for calling this hearing at an important time, and I 
am most excited about the opportunity to hear the Secretary-
General tomorrow. With that, Mr. Chair, I will yield back to 
you.
    The Chairman. Thank you, Senator Kaine. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman. Good to 
see you both. Thank you very much for being here.
    Here is my theory of the case, and I would love to hear 
your responses to it. I think that Russia delights in some way, 
shape, and form in our obsession over the 2 percent threshold. 
Our evaluation of whether countries in NATO are standing up 
capabilities necessary to defend themselves is essentially 
limited to their investment in military hardware.
    And yet, Russia has been wildly successful in weakening 
many of our allies, and weakening the alliance without invading 
a single NATO country. They have developed over the course of 
time all sorts of old-fashioned and newfangled capabilities, 
whether it be the spread of Russian-backed propaganda, whether 
it be the allure of their natural resources, or just old-
fashioned corruption, craft, and bribery that has done 
significant damage to countries in the alliance and on the 
periphery of the alliance.
    I think we made the right move to put a big annual 
commitment into European reassurance initiative. We spent a lot 
of money on that on an annual basis for a billion dollars, and 
I think it is money well spent, but I also think that Russia 
delights in the fact that we spent $4 billion on military 
hardware on the border, and zero dollars on actually trying to 
get countries in Europe to be energy dependent on Russia.
    And so I just want to query you both as to the utility of 
this obsession that we have about evaluating your participation 
in the alliance based pretty much solely on how much money you 
spend on troops, and tanks, and guns. I think that is a really 
important conversation to have, but it should not be what has 
been, at least for Congress, the beginning and the end of the 
conversation.
    Is it time (a) to actually update the way in which we 
decide whether countries are full partners in the alliance? Is 
it time to say that we are going to count something other than 
just military hardware into the equation? Or if not that, what 
are the other mechanisms by which we can acknowledge the actual 
capacities that Russia has, and the lack of those capacities 
that exist inside the alliance today, especially given how we 
talk about countries' contributions.
    That is my question to you, and I would love to hear both 
of your thoughts.
    Mr. Brzezinski. Senator, on burden sharing, the 2 percent 
metric is imperfect. But I like it, because it is simple, and 
it is proportional. And when I look at what drives it, what is 
driving the 2 percent metric is the need for ready deployable 
forces that on day one are ready to go to battle. And NATO has 
struggled from day one of its existence in getting all allies 
to ensure that they are making a proportionate contribution to 
that military readiness.
    Senator Murphy. So I can see where you are heading with the 
answer. Do you think that NATO should be engaged in those other 
questions of security? Or is that something that should happen 
in a different forum? If you are talking about energy security 
or information security, are those conversations that should 
not happen inside of NATO?
    Mr. Brzezinski. Because of the nature of conflict and 
competition today, the alliance will have to play a role, and 
will have to have capacities in the cyber domain, and to a 
certain degree in the information domain. It will have to have 
its antenna up to watch, observe hybrid operations by our 
adversaries.
    But if you go back to the cold war, and you look at that 
time, and the way we defeated the Soviet Union, the West, lead 
by the United States, had a multidimensional strategy. It had 
the Alliance, serving as the pointy end of its spear pointed 
eastward. It had sophisticated political operations to support 
dissident and other political movements in the Soviet Bloc and 
the Soviet Union. It had a fairly massive information 
infrastructure called United States Information Agency. They 
were all coordinated together as part of a national and as part 
of an Western response to the challenge posed by the Soviet 
Union at that time.
    So when I bring those lessons to today, I seen an alliance 
that has to improve its military readiness. It has to be aware 
of what is going on in the other domains. But I see a real gap 
between the amount of resources that a country like Russia, or 
a country like China, puts into hybrid operations what what we 
do.
    I think when the USIA was shut down in 1998 or 1999, it had 
roughly a budget of about $3 billion, 20 years ago. I 
understand our information operations budget in the United 
States Government is about half-a-billion dollars, if that. And 
it is of dissipated among different organizations not 
centralized in an information agency as it was in the past.
    The Chairman. OK.
    Dr. Donfried. If I can just jump in with two points. First, 
I would completely agree with you that it is important to focus 
not only on money and how much money is spent; it matters how 
that money is spent. Russia spends much less than NATO Europe 
does on defense. Part of the reason that Europeans are getting 
less value for their euros is because of the inefficiencies, 
redundancies, and clash of culture across Europe's militaries. 
So there are many metrics we need to be looking at in terms of 
having a more capable alliance. That was my first point.
    The second point is NATO should have a holistic view of 
security. And issues like energy dependence matter, information 
warfare matters, and those are areas that I think buttress the 
point I was making earlier that greater cooperation between 
NATO and the European Union is important, because many of those 
issues are places where the EU also has capacities.
    So I do think we in the transatlantic space need to have 
holistic view of security and need to be looking at this set of 
metrics.
    Thank you.
    Senator Murphy. I appreciate the responses. I just think we 
get awful boxed in by this conversation around 2 percent, first 
because it tends to exclude capacities that are just as 
important as the military capacities, and second, to your 
point, Ms. Donfried, it has nothing to do with integration. So 
you can be spending that 2 percent in a way that does not 
integrate into the rest of your partners, and be meeting the 
metric that the President says is the end-all and be-all of 
sufficient participation.
    Coordination, the quality of your spending, is important as 
well. I do not deny the utility of having a number, but we 
should also have a means of being able to evaluate how you 
spend it, too.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Menendez, anything else 
for the good of the--whoops. Senator Cardin.
    Senator Cardin. Mr. Chairman, thank you.
    The Chairman. Are we out of time, I am----
    Senator Cardin. We have a unique friendship going between 
the chairman and myself.
    Let me first acknowledge my strong support for NATO. I have 
listened to the chairman, and ranking member, and my colleagues 
all talk about this importance of NATO to our national 
security, the transatlantic partnership. And I strongly endorse 
that. So I want to do that as a preface to my question. I think 
it has been an extremely important alliance, one that I 
strongly support.
    I am also going to start with a quote from our former late 
Senator John McCain when he said, ``For the last seven decades 
the United States and our NATO allies have served together, 
fought together, and sacrificed together for a vision of the 
world based on freedom, democracy, human rights, and rule of 
law. Put simply, the transatlantic alliance has made the United 
States safer, more prosperous, and remains critical to our 
national security interests.'' I endorse Senator McCain's 
comments there.
    So when we look at NATO expansion, we vet for all those 
purposes. How strong the country is in its institutions, its 
commitment to democracy, its commitments to human rights, its 
ability to control its military, et cetera, et cetera.
    Once they become a partner in NATO, we do not have much 
formal way of dealing with their commitment to these values. 
And I would say that there have been several NATO partners that 
have gone in the wrong direction on their commitments of good 
governance, human rights, rule of law, and democratic 
institutions.
    So my question to you: How do we use our NATO alliance to 
reinforce its principle value, and that is, to protect 
democracy and democratic institutions, when some of our NATO 
partners are moving in a wrong direction on this?
    Mr. Brzezinski. Senator, the first point I would make is 
that what was the purpose for NATO? It was to send lead down 
range. It was to provide for military defense against our 
adversaries. It was not established primarily as a democracy-
building institution.
    Senator Cardin. I am going to disagree with that, because 
when I look at every partner we had in NATO, when they came 
into NATO they were committed to democratic institutions. And I 
could tell you as we vet whether we will vote for approval, I 
won't support the accession of a country into the NATO alliance 
that does not show those values.
    Mr. Brzezinski. No. I would support your decision on that. 
Commitment to democratic value should be one of the criteria 
for membership.
    Senator Cardin. I am going to let you answer, and I would 
suggest to you perhaps--we talked about the threat from China. 
We talked about the threat from Russia. There is a direct 
threat against democratic institutions today. We have seen an 
erosion of democratic countries around the world for the 13th 
consecutive year. NATO stands for protection of democratic 
countries.
    Mr. Brzezinski. True. The problem is, is that NATO, as a 
consensus-based organization, may not be the most effective 
means to stop a reversal in a commitment to democratic 
principles by one of its members. It can put pressure on a 
member state informally. Member states can be more effective in 
putting pressure on that country through other means, through 
their bilateral relationship, through institutions like the EU, 
and such. But NATO is not going to be the driver of democratic 
reform.
    NATO's experience in that realm is really limited to 
civilian control over the military. It is not an institution 
that has been configured to monitor elections, to measure 
adherence to core values. It is an institution that is designed 
to help allies fight together.
    Senator Cardin. I do not disagree with you. It is a 
military alliance. I recognize that. But its strength is in 
what it stands for. Otherwise, we invite Russia to join us. 
They have a pretty strong military. But we do not want a 
strategic--we do not want a military alliance with Russia. Why? 
Because they don't share our values.
    Mr. Brzezinski. NATO is a reflection of its member states' 
commitment to values. And member states should pressure 
countries, as we did in the case of Portugal, to reform in the 
direction toward democracy. We did not do that directly through 
NATO's institutions or NATO's decisionmaking, we did that 
through external pressure, pressure from outside NATO, through 
our bilateral relationships, European Union.
    Senator Cardin. I would hope for a more--I do not disagree 
with what NATO's mission is. I understand that. But it seems to 
me there has to be the ability within the alliance to recognize 
the importance of its values, because if we are just countries 
of convenience that have joined together for mutual defense, I 
would have picked a different group of countries, quite 
frankly.
    I do not think a lot of our alliances are really going to 
help us militarily. We are actually defending them in a sea 
that is trying to turn them away from democracy. And that is--
great. I am for that. But if we are--if we just look at this 
from a tunnel vision on military security, and we do not look 
at the values we are trying to protect in Europe and the United 
States, we lose. And we have to use every institution we can, 
because there are efforts being made to compromise the 
democratic institutions. That is Russia's principle objective. 
China's principle objective.
    Mr. Brzezinski. When you introduce these sorts--when you 
try and address these sorts of issues on the alliance, you bill 
bump up against the consensus principle. And the only way you 
can really leverage NATO's institutional capacity against a 
particular member state is through the consensus principle. And 
you will never get that as a result.
    Senator Cardin. OSCE is a consensus organization. They have 
principles, and they fight for those principles. And it has 
been pretty successful every year as a consensus institution. 
And that includes countries that we are not terribly in line 
with on values. Seems to me, NATO, we should not have that 
problem.
    Mr. Brzezinski. If one breaks a consensus principle in 
NATO----
    Senator Cardin. They do not break it. You should be able to 
get consensus through our commitments to values to get change, 
or to let it be known that it is not acceptable for a NATO 
partner to infringe upon the basic human rights of its 
citizens.
    Mr. Brzezinski. And NATO provides a mechanism by which 
members can express that. But to translate that expression into 
action can be extremely difficult in a consensus-based 
organization.
    If you challenge the consensus principle, if you want to 
get into a position to be extreme, or you want to be able to 
kick a member state our, I think you would bring into the 
Alliance a really divisive dynamic.
    Senator Cardin. I am not saying that. Maybe we got off to 
the wrong discussion here. I want to know how we use NATO and 
our associations within NATO to advance the values in countries 
that are moving in the wrong direction. I did not suggest that 
we kick them out of NATO. I did not suggest that we penalize 
them and tell them they cannot go to the next NATO summit. I 
did not suggest any of that. What I am suggesting is that there 
should be a focus for NATO membership of a commitment to 
democratic values.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Romney.
    Senator Romney. Thank you, Mr. Chairman. I appreciate your 
commitment to our alliance.
    Clearly, Russia represents a proximate threat and 
geopolitical adversary of sorts. But increasingly long-term, I 
think there is a perspective that China represents a greater 
long-term threat to freedom, to free enterprise, to human 
rights. We hope they will not go down that path, but they have 
taken some frightening turns.
    I would like to ask each of you, to what extent do you 
believe NATO members that have been focused primarily on 
Europe, of course, given its history, and its charter, but to 
what extent do NATO members recognize and seize the importance 
of the potential threat of China, a rising China. That will be 
question one.
    And question two, I will get them both out. And then 
question two is, what would you do--if you had the potential to 
do so, what would you do to strengthen NATO? What is the key to 
making NATO a more powerful alliance? And I say that in part 
because China will have a population many times our size down 
the road. They will have an economy much larger than ours, just 
given the fact that they will have a much--or will have a much 
larger population.
    And for us to have the same economic might, the same 
capacity to build an impregnable military will depend not just 
on us standing alone, but us standing with others whose 
population and economies we can share. So, again, do our NATO 
allies recognize the significance of China as a threat? Are 
they taking action consistent with that? And then No. 2, what 
do we do to strengthen NATO as it faces these challenges?
    Dr. Donfried and then Mr. Brzezinski.
    Dr. Donfried. Thanks so much, Senator Romney.
    In many ways, this connects to the question Senator Cardin 
raised. I am not sure we would have democracy in Europe to the 
extent that we do were it not for NATO, were it not for U.S. 
engagement on the European continent. And the U.S. was very 
clearly trying to expand a liberal, small L, international 
order at the end of World War II that was based on principles 
of liberal democracy, free market economy, rule of law, rights 
of the individual. And those values are essential to what NATO 
stands for.
    And we expect not only aspirants, the Georgias, Ukraines, 
Bosnias of the world, but also existing members to live up to 
those values. And this is why I would argue all NATO allies 
agree with the U.S. that China poses a real challenge to the 
order that we constructed together at the end of World War II.
    The fact of the matter is that China barely registers on 
NATO's agenda today. I would agree with you that NATO needs to 
grapple much more directly with what that rise of China means. 
We see it in terms of China going west with its Belt and Road 
Initiative, making strategic investments in European ports, in 
European tunnels that clearly have affected political stances 
of particular European countries.
    I do think there is increasingly a recognition in Europe 
about the challenge China poses. And we have seen that in 
recent European Union writings as well, and also in the fact 
that many European member states, along with the EU, have 
tightened up their review of Chinese strategic investment.
    So that is to your first question.
    To your second question about how can NATO become more 
powerful, I think for the U.S. it is about doubling down on 
this alliance. We, the U.S., are facing this challenge from a 
rising China, and I believe firmly that we are stronger for 
having democratic allies who are meeting this challenge with 
us.
    What is it that sets us apart from China and from Russia? 
It is precisely that we have allies. And so we should celebrate 
that and treasure it, and work to enhance alliance cohesion.
    Thank you.
    Mr. Brzezinski. I agree with Karen that the European Union, 
our European allies, are becoming more aware of the threat 
posed by China. You see the discussion over Huawei, you see the 
recent strategy document, where they defined China as a 
competitor--pretty daring language for the European Union. And 
so Europe really is ready for a serious discussion with the 
United States on how we can collaborate to help shape the 
relationship the West has with a rise in China.
    How to strengthen NATO? I agree that NATO is going to have 
to put China on its agenda. We are beginning to see the first 
signs of that in the internal discussions going on within the 
alliance.
    As I mentioned in my testimony, what China is doing to the 
international rules-based order affects Europe just as much as 
it affects the United States. The good news is that some of our 
allies actually are already very active. They have a history in 
Asia. The British just had a naval exercise with the Japanese. 
The Norwegians regularly send some ships to RIMPAC exercises. 
That kind of activity is going to have to increase in the 
future, as the two continents deal with an increasingly 
assertive China.
    NATO also has a network of partnership agreements with 
countries in Asia-Pacific. Japan, South Korea, New Zealand, 
Australia. Those can serve as a foundation block, so to speak, 
for a more active NATO engagement in the region, which can be 
then, you know, a building block to a more coordinated 
political military and economic response by the West to China's 
rise.
    Senator Romney. Thank you. Thank you.
    The Chairman. Thank you, Senator Romney. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. And thank you to 
you and Senator Menendez for holding this hearing this week of 
celebration of the 70th anniversary or NATO.
    I want to begin, actually, by pointing out that on Sunday 
that the Presidential elections in Ukraine, their first round 
was completed. They were determined to be free, and fair, and 
competitive by the international observers who were there, one 
of whom was a staff member of mine. And I think it is important 
to recognize that especially at a time when free and fair 
elections are not something that we are seeing certainly in 
Russia and a number of other countries that are aggressors.
    I want to go back to what I think was Senator Cardin's 
question about backsliding on the part of some of our NATO 
allies. Certainly, I think that is true of Turkey. We are 
seeing that with Hungary and with Poland.
    And as you pointed Dr. Donfried, NATO is not just a 
military alliance. It is an alliance of shared values. And when 
the countries who are participating in NATO no longer share 
those democratic values, what kind of action can NATO take to 
address that? And how should we view the backsliding that is 
going on in those countries?
    Dr. Donfried. I think that it is critically important that 
we talk about these issues, because what NATO has in its 
backpack to deal with this really is declaratory policy. It is 
not like the European Union, which actually does have 
provisions to try to work against democratic backsliding within 
its member states.
    So I do think that declaratory policy is the public stance 
that we can take. And I think it is very important that in 
private you, as members of the Senate, together with 
administration officials, also have those conversations with 
the countries where we have concerns, and make it clear that 
this is something we value. Because, again, we are the lead 
nation. Our opinion of what is happening inside these countries 
does matter and does carry weight. And we should not 
underestimate the influence that we have.
    Let me just add here that I think on this issue, as really 
on every issue we have discussed today, the fact that there has 
been a bipartisan stance in the Senate, in the House of 
Representatives, also is critically important. I do think NATO 
would be seriously undermined were NATO itself to become a 
partisan issue. I just want to commend the committee on its 
bipartisan approach to this set of issues.
    Thank you.
    Senator Shaheen. Mr. Brzezinski, do you have anything to 
add to what NATO ought to do to address backsliding?
    Mr. Brzezinski. I think Karen put it very well. You know, 
the alliance is based on a shared commitment to Allies, shared 
values. But we always have to remember, it is primarily created 
to serve as a warfighting instrument. And the ability for that 
warfighting instrument to be effective lies on unity. And if we 
see our fundamental values dissipating, that alliance is 
weaker.
    How do you address these challenges I believe is really not 
through NATO as much as it is through our bilateral 
relationships, or our other multilateral relationships and 
institutions where we can speak directly and clearly to our 
allies and say, ``You have got to change course here, or you 
need to address this in this way.''
    We have done that in the past, and it has been effective. 
And right now, this is a very challenging time for the 
alliance. We have a democratic sag in the West. We see it in 
Central Europe. We see it in Turkey. We see it in Western 
Europe. And to a certain degree we even see it here in North 
America.
    The way we address that is going to be through strong U.S. 
leadership, and as Karen pointed out, Congress has a very 
important role to play in that, particularly when it brings a 
bipartisan consensus to the table in support of these values.
    Senator Shaheen. Thank you both. NATO is setting up a new 
cyber center of excellence. And I know that that is supposed to 
be fully staffed by 2023. But do we know to what extent it is 
also going to address questions around what cyber intrusions--
how cyber intrusions should be addressed with respect to a 
response?
    So, for example, I remember we had a hearing in the Armed 
Services Committee several years ago where we talked about the 
fact that--or we raised the question if someone attacks our 
networks in the United States, and shuts down all of the 
utilities, for example, in the United States, is that 
considered an act of war?
    How is NATO's cyber center going to deal with those kinds 
of questions? Do we know the answer to that?
    Mr. Brzezinski. I am not an expert on the cyber domain, but 
I will share the following thoughts. First, the fact that NATO 
set up such a cyber center is important. It reflects a 
commitment to integrate cyber operations into the full spectrum 
of NATO operations.
    Senator Shaheen. Mm-hmm.
    Mr. Brzezinski. Second, it is interesting that NATO has 
agreed that there can be an offensive dimension to its cyber 
operations. So that reflects a level of commitment to this. So 
it is not just going to be defending, but if someone messes 
with NATO, so to speak, and there is consensus within the 
alliance that this deserves a cyber response, it will be 
prepared to do that. It will take time for the alliance to get 
there.
    And then third, NATO has agreed that a cyber contingency 
could ``lead to an invocation of Article V.'' Could of course 
does not necessarily mean it will.
    Senator Shaheen: Sure.
    Mr. Brzezinski. But that has always been the case for every 
type of military contingency that the alliance could face. 
There is not a guarantee that Article V kicks in. It only kicks 
in when there is a consensus decision by the alliance.
    Senator Shaheen: Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Menendez.
    Senator Menendez. Thank you. Thank you, Mr. Chairman. I 
have one brief followup.
    I do want to remark on Senator Cardin's observations and 
questions, because the Russians cannot outspend us and NATO in 
terms of military spending, but they would be far better off in 
terms of leveraging, creating disunity. You know, when they 
engage in the EU, and try to pick certain countries apart with 
their influences, both in terms of cyber influence, in terms of 
money to certain parties and entities, and can pick a country 
off, then you undermine unity.
    The same is true at NATO. And I think that there has to be 
serious thought if, Mr. Brzezinski, and I do believe in robust 
diplomacy, if the way in which we are going to deal with this 
question is robust diplomacy, then we have to have some robust 
diplomacy with Turkey, because they want to go by, you know, 
the S-400, and they are on a path that is totally antithetical 
to both NATO and our relationship with them.
    We have to tell our friends in Hungary that they are on the 
wrong path. We cannot coddle them or to ultimately embrace 
authoritarianism. We have to challenge it. Because if I was 
Russia, I would be spending far more money in trying to 
undermine some of these countries both to undermine NATO 
cohesion, undermine EU cohesion as it relates, for example, to 
sanctions, and I have achieved my goal without any military 
engagement, at a fraction of the cost. So how we do this, I 
think, there is a lot of food for thought here that I think is 
appropriate.
    My question goes to the following. I have been pressing the 
Administration to work with our European partners to reenergize 
our common front against Kremlin aggression. Russia's attack in 
the Kerch Strait was over 3 months ago, and I think the 
response from the West was weak, to say the least.
    They continue their aggression in Eastern Ukraine. Their 
work to destabilize Ukrainian politics has not stopped. Their 
malign efforts in the upcoming European Parliament elections 
are pretty vivid. These actions are unacceptable. And I am 
wondering how you would assess NATO's efforts to counter 
Russian government aggression in Europe? What is necessary to 
bolster these efforts from both the U.S. and from NATO? Because 
from my perspective, Putin is on a march. He annexed Crimea. 
Yes, condemnation, but nothing more. He has got a destabilizing 
reality in Eastern Ukraine, condemnation, but well, we had some 
sanctions, some of which I helped author.
    You have the Kerch Strait. You have the Skripal attack. We 
have not had any sanctions, responses related to that. So you 
see it involved in action, and, you know, the challenge for us 
that we only have a handful of peaceful diplomacy tools. Russia 
is willing to use militarism to advance its goals. We use 
peaceful diplomacy tools, which are largely sanctions to fight 
back.
    So what should we be doing. What should we be doing? What 
should we be seeing NATO do to posture, at least, to send a 
very clear deterrent message to Russia?
    Mr. Brzezinski. Sir, there has been a fundamental flaw in 
the West's response to Russian revanchism, Russian aggression, 
that has been ongoing for almost 15 years even before the 
invasion of Georgia in 2008.
    Our strategy has been a strategy of incrementalism. The 
Russians go in, they violate the sovereignty of an independent 
nation, seize territory, and our response is piecemeal. It is 
hesitant.
    Look in the case of the invasion of Ukraine. It had 10 
percent of its territory seized, Crimea taken away, and our 
response, the West's response is to move into Central Europe a 
mere handful of U.S. aircraft in the days after that attack. 
And weeks later we move a U.S. company or two into the Baltics, 
and into Poland. And our Western European allies do nothing.
    We impose sanctions on Russia that limited to targeted 
sanctions, largely against individuals. Individuals who 
probably walk around Moscow wearing them as a red badge of 
courage, a demonstration of fealty to Putin. And yes, we 
increase them over time, but they are targeted incremental 
sanctions.
    Senator Menendez. So what should we do?
    Mr. Brzezinski. Well, I would do three things. One, I would 
have more robust military deployments in North Central Europe. 
I don't think we are properly postured in that region. I would 
increase NATO's military presence in the Baltic Sea. So more 
robust military response.
    I would escalate to sectorial economic sanctions. I would 
really hit hard the Russian banking sector. Maybe you could 
incrementally pick off different banks, and just increase the 
number of banks you hit over a period of time to put steadily 
increasing pressure on the Russian economy.
    The Russian economy is still growing in 1 percent, 1.5 
percent. That is not hurting. LUKOIL oil has got record sales 
today. So we are not hitting them as hard as we can.
    And then I would initiate a strategy of disruption. If 
Putin's going to play a game against the West where he is 
funding rightest parties in Europe, meddling around in our 
elections through social media and such, why don't we do the 
same against him? We did that during the cold war, and we 
prevailed.
    I think Putin has a very fragile regime. He is also a very 
pragmatic character. And if we really ratcheted up the pressure 
through a more robust military posture, through stronger 
economic sanctions, with real bite, and a strategy of 
disruption, he is more likely to back off.
    Senator Menendez. Some of those items are in our desk of 
legislation. Yes.
    Do you have any suggestions, Dr. Donfried?
    Dr. Donfried. I would just say in addition to what you have 
in the desk of legislation, it is critical that we be thinking 
about how we build resilience in the face of Russian 
interference. As you noted, the cyber tool is very inexpensive 
for Russia to deploy. And I think part of this is a NATO 
response, but also I think the U.S. rightly is working very 
closely with the European Union on this, because our European 
allies are equally concerned about Russian interference in 
their elections. I also think there are bilateral roles here to 
play for U.S. intelligence that can be helpful to our allies in 
highlighting some of the things that Russia, and it is not only 
Russia, that Russia, China, Iran are doing in terms of meddling 
and trying to undermine our democracies.
    So I think we need to work on all of those fronts. I will 
just pick up on the fact that Senator Shaheen mentioned 
Ukraine. It really was encouraging to see this expression of 
vibrant democracy in Ukraine over the weekend. I think the fact 
that we have been very open in public about our concern with 
Russian interference in elections, that that in and of itself 
has provided a deterrent effect as well. But I think we need to 
move out on all of those arenas to build resilience to Russian 
interference.
    Senator Menendez. Thank you both.
    The Chairman. Well, thank you. Thank you to both of you for 
testifying here today. It has been enjoyable going back down 
memory lane about the successes that NATO has had. We have 
touched on a number of the challenges that are right here in 
front of us now, and we only scratched the surface on some of 
them, and not the least of which is a NATO ally, Turkey, that 
reference has been made to the fact that they are going to be 
purchasing military equipment from the Russians. I mean this is 
totally against everything that NATO stands for. Certainly, 
those can't be interoperable with NATO materials.
    Some of us has had some very robust discussions with our 
Turkish friends. I am not satisfied with where we are. I don't 
think they have a full understanding of the consequences that 
are going to come. I agree with you Mr. Brzezinski. We can't 
sit on our hands, particularly on this new challenge that we 
are getting. I think we are going to have to act quickly. We 
are going to have to act severely, and we have mandatory 
sanctions that will take place if, indeed, that sale goes 
through. And they claim the sale has gone through, but they 
haven't deployed yet, and won't deploy until August or 
September, but this is a really serious challenge. And I 
suspect we are going to be speaking about it more here on the 
committee.
    So thank you both for coming here today and visiting with 
us. And it has been, I think, an eye-opening discussion in many 
regards.
    For information from the members, the record will remain 
open until the close of business Friday. We ask the witnesses 
to respond promptly to any of those questions, and those 
answers will be made part of the record.
    With the sincere thanks of the committee, the committee is 
adjourned.
    [Whereupon, at 3:50 p.m., the hearing was adjourned.]

                                  [all]
</pre></body></html>
